HHS/OIG-Audit--"Review of the Administrative Costs Submitted by an Ohio Based Medicare+Choice Organization in the 2000 Adjusted Community Rate Proposal, (A-05-00-00040)"
Department of Health and Human Services
Office of Inspector General -- AUDIT
"Review of the Administrative Costs Submitted by an Ohio Based Medicare+Choice
Organization in the 2000 Adjusted Community Rate Proposal," (A-05-00-00040)
March 26, 2001
Complete Text of Report is available in PDF format
(905 kb). Copies can also be obtained by contacting the Office of Public Affairs
at 202-619-1343.
EXECUTIVE SUMMARY:
Currently, there is no statutory or regulatory authority governing allowability
of administrative costs included in the adjusted community rate (ACR) process
for determining Medicare capitation rates under risk-based contracts with managed
care organizations (MCO). At an Ohio based MCO we identified costs of $629,429
that would be considered inappropriate when compared to the Medicare program's
general principle of paying only reasonable costs. These costs included direct
marketing costs (meetings and souvenirs), bad debts expense, and lobbying. The
majority of the costs ($538,036) represented excess allocations of salaries
and other administrative expenses to Medicare based on a subjective weighting
of employee effort by department managers. In this final report we point out
the flaws in the current methodology which results in Medicare covering a disproportionate
share of the MCO's administrative costs. Additional reviews are ongoing and
preliminary results show similar problems at other MCOs. The results of these
reviews are being shared with the Health Care Financing Administration so that
appropriate legislative changes can be considered.